HHS/OIG-Audit--"Report on Medicare Part B Administrative Costs at Pennsylvania Blue Shield, (A-03-92-00035)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Report on Medicare Part B Administrative Costs at Pennsylvania Blue Shield," (A-03-92-00035)
January 14, 1994
Complete
Text of Report is available in PDF format (1.1 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Pennsylvania Blue Shield (PBS) claimed unallowable costs totaling $1,128,698
in administering the Medicare Part B program. The unallowable costs included costs associated with PBS' private lines of
business, entertainment, contributions, a bid proposal, and other activities not eligible for Medicare reimbursement. The
PBS agreed to make procedural improvements and a financial adjustment for the above amount. Health Care Financing Administration
officials generally agreed with the findings and recommendations.